No.
In the

SUPREME COURT OF THE UNITED STATES
JOSE VELASQUEZ, Petitioner
V.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to
the United States Court of Appeals for the Tenth Circuit
Motion for Leave to Proceed in Forma Pauperis
The petitioner, by his undersigned counsel, asks leave to file the
attached petition for writ of certiorari to the United States Court of Appeals
for the Tenth Circuit without prepayment of costs and to proceed in forma
pauperis. The petitioner was represented by counsel appointed in the trial
court under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the
Supreme Court of the United States.

1

Respectfully submitted,
STEPHEN P. MCCUE
Federal Public Defender
s/Devon Fooks
G. DEVON M. FOOKS*
Assistant Federal Public Defender
111 Lomas Blvd., NW, Suite 501
Albuquerque, N.M. 87102

DATED: September 18, 2020

Telephone: (505) 346-2489
Facsimile: (505) 346-2494
E-mail: devon_fooks@fd.org
Attorneys for the Petitioner
* Counsel of Record

2

